Report No. DODIG-2012-108                August 31, 2012




      Questionable Data Cast Doubt on the Need for
    Continuing the Defense Transportation Coordination
                        Initiative
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.


Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
COR                           Contracting Officer’s Representative
DLA                           Defense Logistics Agency
DoDI                          DoD Instruction
DTCI                          Defense Transportation Coordination Initiative
GFM                           Global Freight Management
GSA                           General Services Administration
PMO                           Program Management Office
QASP                          Quality Assurance Surveillance Plan
USTRANSCOM                    United States Transportation Command
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500




                                                                                 August 31, 2012

MEMORANDUM FOR COMMANDER, U.S. TRANSPORTATION COMMAND

SUBJECT: 	 Questionable Data Cast Doubt on the Need for Continuing the Defense
           Transportation Coordination Initiative (Report No. DODIG-2012-108)

We are providing this report for review and comment. We considered management comments
on a draft of this report when preparing the final report. The Defense Transportation
Coordination Initiative (DTCI) Program Management Office personnel did not provide effective
oversight of the DTCI contract, valued at $1.76 billion. The third-party logistics contractor,
Menlo, reported cost reductions of $167.4 million for 699,157 freight shipments. However, the
reductions were not verifiable because of questionable data.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The comments
from the Commander, United States Transportation Command, on Recommendations 1.c, 1.d,
1.e, 1.g, 1.h, 1.i, 1.j, and 1.k were responsive, and no further comments are required. We deleted
draft report Recommendation 1.c. from the report. The comments on Recommendations 1.a, 1.b,
and 1.f were not responsive. Therefore, we request additional comments by October 1, 2012.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If
possible, please send a portable document format (.pdf) file containing your comments to aud­
colu@dodig.mil. Copies of your comments must have the actual signature of the authorizing
official for your organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them over
the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905.




                                       Amy J. Frontz
                                       Principal Assistant Inspector General
                                         for Auditing
Report No. DODIG-2012-108 (Project No. D2010-D000FJ-0246.000)                    August 31, 2012

               Results in Brief: Questionable Data
               Cast Doubt on the Need for Continuing
               the Defense Transportation
               Coordination Initiative
                                                         reductions and $56.9 million in program costs,
What We Did                                              then costs were about $7.5 million greater than
We determined whether the Defense                        cost reductions.
Transportation Coordination Initiative (DTCI)
Program Management Office (PMO) oversight                The exercise of future contract options will
of the third-party logistics contractor, Menlo,          require implementing corrective actions to
was effective and the contract reduced costs.            verify that program benefits occur and offset the
The contract, valued at $1.76 billion, was               contract costs.
awarded in August 2007 for 3 base years,
2 option years, and 2 award-term option years.           What We Recommend
                                                         Among the recommendations we made, we
What We Found                                            recommended that the Commander, U.S.
PMO personnel did not provide sufficient                 Transportation Command, not exercise future
oversight of the DTCI contract, and Menlo                options on the DTCI contract until he can certify
reported unverified cost reductions of                   that there are cost reductions. In addition, he
$167.4 million for 699,157 freight shipments             should revise oversight guidance.
from March 2008 through September 2010. The
reductions were not verifiable because of                Management Comments and
questionable data. In addition, PMO officials            Our Response
did not develop and include in the contract an           The Commander, U.S. Transportation
effective methodology to establish baseline              Command, agreed with 10 draft
transportation costs and calculate cost                  recommendations and disagreed with 2. We
reductions from shipments and did not                    requested additional comments on three
effectively implement the Quality Assurance              recommendations. As a result of management
Surveillance Plan. As a result, PMO officials            comments, we deleted one draft
did not:                                                 recommendation. Please see recommendations
                                                         table on the back of this page.
   •	 identify that $118 million of reported
      cost reductions were based on flawed
      baseline transportation costs and that it is
      questionable whether these reductions
      were achieved; and
   •	 deduct $56.9 million in program costs
      from reported cost reductions.

If the $167.4 million in cost reductions were
offset by the $118 million in questionable cost


                                                     i
Report No. DODIG-2012-108 (Project No. D2010-D000FJ-0246.000)          August 31, 2012

Recommendations Table

                                            Recommendations          No Additional
            Management                    Requiring Comment      Comments Required
Commander, U.S. Transportation Command    1.a, 1.b, and 1.f     1.c, 1.d, 1.e, 1.g, 1.h,
                                                                1.i, 1.j, and 1.k.

Please provide comments by October 1, 2012.




                                          ii
Table of Contents

Introduction	                                                        1


      Audit Objective                                                1

      Contract Oversight Guidance                                    1

      Review of Internal Controls                                    3


Finding. Questionable Benefits and Ineffective Program Oversight	    4


      Effectiveness of DTCI Depended on Cost Reductions              4

      Accuracy and Completeness of Historical Baseline               5

      Questionable Cost Reductions                                   7

      Navy Questioned DTCI Cost Savings                             10 

      Army Identified Higher Costs Under DTCI                       11 

      Management Services Costs Not Deducted                        12 

      Preparation of Performance Work Statements                    12 

      Followup on Customer Complaints                               13 

      Assessing Performance and Awarding Incentive Fees             14 

      Contractor Use of “Exceptions” Affected Reported 

          On-time Delivery Information                              15 

      Should the DTCI Contract Continue?                            17 

      Effect of Not Exercising the Contract Options                 18 

      Conclusion                                                    20 

      Management Comments on the Finding and Our Response           20 

      Recommendations, Management Comments, and Our Response        21 


Appendices

      A. 	Scope and Methodology                                     25 

             Use of Computer-Processed Data                         26 

             Use of Technical Assistance                            26 

             Prior Coverage on DTCI                                 26 

      B. Statistical Analysis	                                      28 

      C. Extreme Outliers	                                          31 


Management Comments

      United States Transportation Command	                         33 

Introduction
Audit Objective
The objective of the audit was to determine whether the United States Transportation
Command (USTRANSCOM) effectively monitored the use of third-party logistics
contracting efforts to improve the coordination of freight shipments in the continental
United States. See Appendix A for a discussion of the scope and methodology and prior
coverage on Defense logistics contract monitoring.

Contract Oversight Guidance
On April 12, 2006, USTRANSCOM published a business case analysis that predicted
33-percent cost reductions on the shipment of freight within the continental United States
by using a contractor to coordinate and consolidate shipments. The effort was titled the
Defense Transportation Coordination Initiative (DTCI) and was part of DoD
transformational efforts that were intended to improve operations and save money. The
DTCI program excluded many shipments, including small packages, household goods,
firearms, ammunition, and explosives. Other than the excluded items, the DTCI program
consisted of all second-destination freight shipments within the continental United States,
such as shipments from Defense depots.

On August 17, 2007, USTRANSCOM awarded the DTCI contract (HTC711-07-D-0032)
for transportation coordinator to Menlo Worldwide Government Services (Menlo). The
contract period of performance covered 7 years, including 3 base years, 2 option years,
and 2 award term option years. 1 As of August 31, 2010, the total value of the contract
was $1.76 billion (see Table 1).

              Table 1. Contract Line Item Amounts for the DTCI Contract
                   Contract Line Item                  Amount
              Transportation                           $1,643,551,873
              Management Services                         108,066,712
              Award Fee                                    10,806,671
              Management Services – Surge                   1,514,835
              Indian Incentive Program                        192,074
               Total                                   $1,764,132,165

The DTCI contract was a hybrid contract containing both reimbursable and fixed-price
cost provisions. Transportation costs were processed on a reimbursable basis, and


1
 Per the contract, Menlo may earn up to two 1-year award term option periods based on its performance in
option years 1 and 2.

                                                   1

management services were based on fixed-price provisions. Invoiced transportation costs
were paid to Menlo, and Menlo then paid the carriers that moved DoD freight from one
location to another. Management services and award fees were paid to Menlo for
arranging the shipments with the carriers. The award fee was determined semiannually
by the fee-determining official. Menlo was responsible for coordinating and executing
DoD shipments from 91 locations using such industry best practices as mode
conversions, which allowed Menlo the flexibility to select the most efficient method of
moving items; that is, by air, land, or rail. This was meant to optimize and consolidate
orders, and the contract established a goal of reducing freight costs by 19.1 percent for
the 6 months preceding October 2010.

USTRANSCOM estimated the total program management costs would be about
$24.7 million per year, including management and consulting services provided by
Menlo, UNISYS, and LMI. According to its contract (HTC711-07-D-0008, performance
period of February 15, 2008, through September 30, 2010), UNISYS was required to
provide technical, analytical, and process improvement services relating to Menlo’s
performance. UNISYS was also responsible for preparing and posting the metric
presentations and briefs to the Program Management Office (PMO) Web sites. As of
September 30, 2010, annual costs of the contract with UNISYS were about $375,000.

USTRANSCOM also established contracts (HTC711-07-F-0025, performance period of
October 1, 2007, through March 31, 2009, and HTC711-09-F-0025, performance period
with options of April 1, 2009, through September 30, 2011) with LMI to provide
technical, analytical, and implementation support services relating to DTCI. The contract
documents indicated that LMI possessed transportation design expertise and experience
with world-class third-party logistics providers. Annual costs of the LMI contracts were
about $1.5 million per year.

USTRANSCOM established the PMO in January 2005. According to a draft document it
provided to us, the PMO was created to implement and administer the DTCI-related
contracts in coordination with contracting officials. From FY 2008 through FY 2010,
program management costs totaled $56.9 million. USTRANSCOM dissolved the PMO
in 2011 and transferred the program to the Surface Deployment and Distribution
Command.

Performance Requirements
DoD Instruction (DoDI) 5000.02, “Operation of the Defense Acquisition System,”
December 8, 2008, requires all acquisitions of services to be based on clear, performance-
based requirements; include identifiable and measurable cost, schedule, and performance
outcomes consistent with customer needs; and receive adequate planning and
management to achieve those outcomes. The DTCI performance work statement
required Menlo to perform transportation coordination services in a manner that would
improve the reliability, predictability, and efficiency of DoD materiel moving within the
continental United States, including achieving 19.1 percent in cost reductions in the
6 months preceding October 2010.


                                            2

The DTCI performance work statement also identified six key performance objectives for
measuring the contractor’s performance. The performance objectives were on-time
pickup, on-time delivery, information system availability, loss/damage-free shipments,
timely claims processing, and small business subcontracting goals.

Contract Oversight
The Defense Transportation Regulation, Chapter 213, “Defense Transportation
Coordination Initiative,” July 2008, prescribes responsibilities and procedures for DTCI
shipments. Chapter 213 specifies that the Service or Agency contracting officer’s
representative (COR) is responsible for monitoring and verifying that the coordinator’s
performance is meeting minimum standards.

In following the requirements of chapter 213, ordering officers from the Military Services
and the Defense Logistics Agency (DLA) were appointed by the contracting officer to
provide oversight of the shipments. The DTCI PMO personnel were required by the
regulation to monitor the contractor’s performance.

In addition to the regulation, USTRANSCOM developed a “DTCI User’s Guide.” The
purpose of version 2.1, issued February 2009, was to describe key operational processes
and activities and to provide users of DTCI services with a reference tool for day-to-day
operations. PMO personnel told us they developed the “User’s Guide” as a local
regulation and day-to-day operational tool. We reviewed the “User’s Guide,” which
requires CORs and ordering officers to report problems as part of their oversight and
requires post-payment audits by the Defense Contract Audit Agency. The “User’s
Guide” states that “It is imperative that any experience of poor performance be reported
using the Menlo Customer Feedback Tool.” The Customer Feedback Tool was a system
developed by the contractor to log customer complaints regarding contractor
performance, such as late deliveries and pickups. The “User’s Guide” also states that it is
the contracting officer’s responsibility to ensure that the payments are proper and correct
per the terms of the contract and that the payments are provisional and subject to post-
payment contract audit by the Defense Contract Audit Agency.

Review of Internal Controls
An internal control weakness in the oversight of the DTCI contract existed as defined by
DoDI 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010. We determined that USTRANSCOM did not develop and include in the
contract an effective methodology to establish baseline transportation costs and calculate
cost reductions from shipments to verify cost reductions and performance on the DTCI
contract. We will provide a copy of the report to the senior official responsible for
internal controls at USTRANSCOM.




                                            3

Finding. Questionable Benefits and
Ineffective Program Oversight
DTCI Program Management Office (PMO) officials did not provide sufficient oversight
of the DTCI contract, totaling $1.76 billion, and Menlo reported unverified cost
reductions of $167.4 million for 699,157 freight shipments. This occurred because PMO
officials did not develop and include in the contracts an effective methodology to
establish baseline transportation costs and calculate cost reductions from shipments, and
they did not effectively implement the Quality Assurance Surveillance Plan (QASP) that
would oversee contractor performance for reported cost reductions, on-time deliveries,
and customer complaints. As a result, PMO officials:

   •	 did not identify that $118 million of reported cost reductions were based on
      flawed baseline transportation costs, and it is questionable the reductions were
      achieved;

   •	 did not deduct $56.9 million in program costs from reported cost reductions; and

   •	 had no assurance that portions of award fees based on cost reductions and 

      delivery performance were warranted. 


If the $167.4 million of cost reductions were offset with the $118 million of questionable
cost reductions and $56.9 million of program costs, then costs were about $7.5 million
greater than cost reductions. The exercise of future contract options requires
implementing corrective actions to verify that program benefits occur and offset the
contract costs.

Effectiveness of DTCI Depended on Cost Reductions
Based on guidance from PMO officials and the contracting officer, Menlo estimated that
it achieved $167.4 million in cost reductions on DoD shipments within the continental
United States through September 2010 by comparing DTCI shipment costs to a historical
baseline provided by LMI. Menlo used the estimated cost reductions to show it met the
19.1 percent goal of cost savings on the DTCI contract. The amounts Menlo reported for
DoD customers, as shown in Table 2, indicate that DTCI decreased costs by 30.3 percent.




                                            4

               Table 2. Cost Reductions Reported to DoD Customers

                           March 2008-September 2010 

                                  ($ in millions)
Service/Agency   Shipments      Baseline Cost       DTCI Cost      Cost Reduction
DLA               575,706            $388.1            $284.3           $103.7
Army               51,905              74.5              47.9             26.5
Navy               28,603              37.0              25.5             11.5
Air Force          37,209              32.8              21.5             11.3
Marine Corps         5,734             20.6               6.3             14.3
 Total            699,157            $552.9            $385.5           $167.4
 Note: Totals may not sum because of rounding.

 Menlo provided us supporting information that consisted of $267 million in cost
 reductions and $100.5 million in cost increases, or a net cost reduction of $166.5 million.
 Menlo’s information was $900,000 less than the $167.4 million it reported to DoD
 customers.

 Accuracy and Completeness of Historical Baseline
 The historical baseline is a key component of determining cost reductions and cost
 increases resulting from the DTCI contract. During the audit, we obtained the version of
                                        the LMI baseline used by Menlo to estimate DTCI
      LMI personnel told us in an       cost reductions. We asked LMI personnel for the
        e-mail that cleansing the       methodology they used to develop the baseline,
       historical information was       and they told us in an e-mail that developing and
               “part art.”              cleansing 2 the historical information was “part
                                        art,” and they did not have a written process to
 replicate the original baseline. LMI indicated that the process required workarounds.

 PMO personnel did not verify the accuracy of the baseline that we examined during the
 audit. When we asked LMI why small arms, ammunition, and explosives were still in the
 baseline throughout the audit, the LMI program manager stated that LMI scrubbed the
 information but that “you never catch all of them when dealing with so many
 determinants.”

 We also questioned the use of small shipments in the baseline to calculate savings on
 very large shipments. In transportation, there is a relationship between weight, distance,
 and cost. Shipments of 100 pounds cost more per pound than does a shipment weighing
 10 tons. The Menlo system also incorrectly used the cost from a single 120-pound
 shipment to compute $1.16 million in cost reductions on 23 larger shipments in the
 thousands of pounds each. LMI should have excluded the shipment from the baseline.



 2
     Process that removed unusable and excluded data (such as ammunition and international shipments).

                                                      5

Single small shipments generally would not produce a representative historical average.
PMO personnel should have identified this type of error.

We asked PMO personnel and the contracting officer whether they had verified the
accuracy and completeness of the LMI baseline before accepting the information from
LMI. They indicated they had not and told us they did not have the expertise to do it. As
a result, flawed information remained in the baseline throughout the audit.

          PMO personnel told us that an       PMO personnel told us that an inaccurate
    inaccurate baseline would cause the cost  baseline would cause the cost reductions
        reductions Menlo generated in its     Menlo generated in its reports to be
     reports to be inaccurate, but did not actinaccurate, but did not act to review the
       to review the historical information   historical information provided to Menlo
            provided to Menlo by LMI.         by LMI. Menlo used a formula approved
                                              on March 31, 2008, to calculate the cost
reductions. However, PMO personnel reported the Menlo cost reductions on the PMO
Web site without any further review of the accuracy of the information.

Scheduled Shipments Did Not Match Information
in the Menlo System
Another problem in determining potential cost reductions was the inability to track the
use of scheduled shipments (called dedicated lanes). Menlo used its information system
to automatically compute gross cost reductions by shipping lane. However, we could not
match the shipment information in the Menlo system to payment records because
Menlo’s system did not identify costs of the individual items shipped on a dedicated
truck. As a result, the cost reductions related to small shipments on dedicated lanes were
misstated and unreliable.

For example, bill of lading number 148615S2 represented a shipment of 109 mixed
pieces, with a total weight of more than 27,000 pounds, using a truck from the DLA
Distribution Depot Susquehanna, Pennsylvania, to the Distribution Depot in San Joaquin,
California. One of the pieces was a 10-pound item. According to information in the
Syncada 3 system, Menlo billed and was paid $4,868 for the 10-pound item rather than
$71 that DLA expected to pay. Menlo then used the shipment cost of the 10-pound item
in its cost avoidance calculations and showed a loss of $4,182. A DLA official indicated
that Menlo apparently billed the entire truckload cost to the 10-pound item.
USTRANSCOM personnel claimed that Menlo allocated a portion of the $4,868 to each
of the 109 items in the shipment. They provided us additional information from Syncada,
but it did not show that Menlo allocated the cost to any of the other 108 items. This
demonstrated a lack of review of invoices by PMO personnel. They should have detected
these types of overstated shipment costs as part of their oversight of the DTCI contract.



3
 Syncada is a third-party payment system and its use is mandated for DTCI shipments per the Defense
Transportation Regulation, chapter 213, July 2008.

                                                   6

  The Commander, USTRANSCOM, should review the actions of the PMO personnel and
  contracting officials and, based on that review, determine whether any administrative
  actions are necessary.

  Questionable Cost Reductions
  PMO personnel did not identify that $118 million of reported cost reductions were based
  on flawed baseline transportation costs, and it is questionable the reductions were
  achieved. The $118 million in questionable cost reductions included:

      • $84.8 million in extreme cost reductions (outliers), and
      • $33.2 million attributable to missing information on large shipments.

  The following two sections discuss the questionable cost reductions.

  Outliers
  As shown in Table 3, the Menlo information contained $84.8 million in extreme cost
  reductions (outliers are beyond 3 standard deviations as discussed in Appendix B) that
  were questionable.

                           Table 3. Outliers and Corresponding Costs
                                          ($ in millions)
                          Number of Shipments                    Cost Reported
 Category           Cost             Cost                           Cost             Cost
                  Reduction        Increase         Total        Reduction         Increase          Total
Within 3            271,254         422,296         693,550       $(181.2)           $99.5          $(81.7)
Std Dev
Outliers                4,640              75          4,715         (85.8)             1.0          (84.8)
 Total               275,894         422,371        698,265        $(267.0)         $100.5         $(166.5)
  Std Dev – standard deviation

  We used basic statistical methods and calculated that $86.8 million (absolute value 4) in
  cost reductions were attributable to 4,715 shipments with extreme cost reductions that
  exceeded 3 standard deviations of the mean. We considered the shipments beyond three
  standard deviations to be outliers. Our analysis indicated that although the outliers made
  up only 0.68 percent of the total shipments, they accounted for nearly 51 percent of the
  reported cost reductions. The outlier cost reductions were questionable because they
  reflected unusual and extreme cost reductions (see Table 4).




  4
   A nonnegative number equal in value to a given real number. For example, 85.8 is the absolute value of
  negative 85.8 (-85.8). Therefore, the absolute value of $(85.8 million) and $1 million is $86.8 million.

                                                      7

  LMI did not identify the outliers, even though Section 5.2, “Data Analysis and General
  Analytic Support,” of the LMI contract included a deliverable on DTCI cost and cost
  savings projection models and results. LMI should have used similar basic statistical
  techniques, identified the 4,715 suspect outliers, and brought them to the attention of the
  PMO officials. The extreme outliers–those with the highest reported cost reductions–are
  shown in Table 4.

                      Table 4. Top 10 Unsupported Cost Reductions

                               March 2008-September 2010 

                             State                                    Cost
    Item/Shipment                                          LMI               Reported       %
                         From        To      DTCI
       Number                                             Baseline           Reduction    Saved
1. S421945446              FL        AL     $3,500        $536,765           $533,265     99.35
2. HEAGAG00168651          GA        CA      3,306          455,253            451,947    99.27
3. HEAGAG00194968          GA        CA      2,350          373,515            371,165    99.37
4. S473686445              UT        IN      3,524          304,604            301,080    98.84
5. HWBCYC00075613          CA        FL      4,670          290,547            285,877    98.39
6. S507690212              FL        GA        600          281,590            280,990    99.79
7. S507689740              FL        GA        600          281,590            280,990    99.79
8. LJMLD362006             CA        FL      4,585          282,221            277,636    98.38
9. S438394489              KY        KS        862          268,950            268,088    99.68
10. S446478560            WA         IL      2,787          252,446            249,659    98.90
 Total                                     $26,784       $3,327,481          $3,300,697   99.20


  Outlier numbers 1 and 6 are highlighted in Figure 1 to illustrate how extreme the average
  costs were compared to other shipments from the same transportation office. The
  remaining items are discussed in Appendix C. LMI should have identified the extreme
  costs per hundred pounds and removed the shipments from the LMI historical baseline.

  We created Figure 1 using baseline transportation costs that were used by Menlo to
  calculate cost reductions. Figure 1 illustrates that there was not the expected relationship
  between distance and transportation cost per hundred pounds for shipments. For
  example, the average cost of a shipment from U.S. Property and Fiscal Office, Florida
  National Guard, to Fort Stewart, Georgia, was more than double the average cost of a
  shipment to Anniston, Alabama, despite similar distances shipped.




                                               8

                    Figure 1. LMI Average Cost Per Hundred Pounds

                     Shipments From U.S. Property and Fiscal Office

                                Florida National Guard





USPFO = United States Property and Fiscal Office

Shipment No. S421945446 – Outlier Item 1
Menlo’s records showed that shipment no. S421945446 went from Starke, Florida, to
Anniston at a cost of $3,500 and weighed 107,840 pounds. This was a cost of $3.24 per
hundredweight. Menlo calculated a cost reduction of $533,265 on this shipment. This
outlier occurred because LMI included only one historical shipment in the historical
baseline. LMI should have deleted the transaction from the baseline because the
shipment description was related to firearms, which are excluded from the DTCI
program. The historical shipment weighed 310 pounds and cost $4.97 per pound, and
LMI used it to calculate a baseline cost per hundredweight of $497.74. The information
from a small shipment of 310 pounds was clearly unmatchable to a shipment of
107,840 pounds.

Shipment No. S507690212 – Outlier Item 6
Menlo’s records showed shipment no. S507690212 went from Starke to Fort Stewart at a
cost of $600 and weighed 25,980 pounds. This was a cost of $2.31 per hundredweight.
Menlo calculated a cost reduction of $280,990. This outlier occurred because LMI used
only two historical shipments, with weights under 150 pounds, to calculate the baseline.
LMI used the average cost of $10.83 per pound to calculate a baseline cost per
hundredweight of $1,083.87. Extrapolating the cost of 150-pound shipments to a
shipment of 25,980 pounds does not represent a realistic cost reduction.


                                                   9

PMO personnel did not apply appropriate procedures in overseeing the reported cost
reductions, which would have made them aware of anomalies. Consequently, PMO
personnel did not identify or investigate the anomalies. Both LMI and Menlo are
professional logistics companies. The companies should have identified that the shipping
rates per hundredweight and cost reductions were questionable and not achievable.

Information Missing From the Baseline
The LMI baseline excluded shipment information on shipments greater than
20,000 pounds for some of the shipping lanes. Specifically, Menlo reported
14,291 shipments greater than 20,000 pounds that did not have similar large shipments in
the LMI baseline. In aggregate, Menlo reported a cost reduction of $81.2 million on the
14,291 large shipments. Of the $81.2 million, $48 million related to 2,424 shipments
greater than 3 standard deviations beyond the mean (outliers), and $33.2 million related
to 11,867 shipments within 3 standard deviations of the mean. Large shipments, such as
those over 20,000 pounds, generally cost less per pound to ship than smaller shipments.
PMO personnel should have identified that historical information on large shipments for
some of the shipping lanes was missing and corrected the historical information or not
reported cost reductions because of the lack of comparable information.

Transportation Accounts Did Not Reflect a Decrease in Costs
We asked the Military Services and DLA whether DoD had reduced their respective
transportation budgets to account for the $167.4 million in reported DTCI cost
reductions. An actual cost reduction, had it occurred, would likely trigger a
corresponding decrease in transportation budgets. Under Secretary of Defense for
Acquisition, Technology, and Logistics officials stated that DTCI might have caused
reprogramming actions to occur. However, we found no evidence that this had occurred,
which cast further doubt on the validity of the reported cost reductions.

The DTCI program goal was to decrease costs. The Commander, USTRANSCOM,
needs to develop a plan that identifies and tracks DTCI cost reductions within the
Military Services and DLA budgets, appropriations, and reprogramming actions.

Navy Questioned DTCI Cost Savings
                                         Navy officials told us that Menlo’s cost savings
    Navy transportation specialists      were not believable and that PMO personnel had
     found that, on average, DTCI        not been responsive to the complaints that the
    shipments cost 68 percent more       DTCI costs were considerably higher than
      than the GFM system rates.         market-based rates. Specifically, line rate
                                         analyses performed by Navy personnel indicated
that Menlo did not obtain rates lower than the market-based prices available in the GFM
System. GFM is a shipping system used by the Navy to process non-DTCI shipments
and the rates do not provide guaranteed service. Navy transportation officers had filed
complaints about DTCI costs with the PMO officials during one evaluation period we
examined (Period No. 6).

                                           10
For example, Navy transportation specialists at the Trident Refit Facility, Kings Bay,
Georgia, found that, on average, DTCI shipments cost $189 more (68 percent) than the
GFM System rates. Of the 435 DTCI shipments it reviewed, the Navy found 305 had
lower rates available in the GFM System. In aggregate, the DTCI shipments cost
$202,348 and the GFM rates totaled $120,063, a difference of $82,285. At the time of
our audit, Menlo reported cost savings of about $338,000 on 584 shipments out of
Trident Kings Bay. The Navy analyses concluded that DTCI was not reducing
transportation costs on 435 sampled shipments and that the Menlo-reported savings were
not believable.

One Navy cost comparison indicated that Menlo selected a GFM carrier at a quoted price
of 41 percent more than the GFM System rate. The comparison showed that Menlo
agreed to pay Mercer Transportation $12,937 for a DTCI shipment from Kings Bay to
Long Beach, California. Concurrent GFM System rate quotes included 20 potential
shippers. The lowest quote was $6,909, and the highest quote was Mercer Transportation
at $9,180. The $12,937 rate appeared to include a 40-percent markup over the Mercer
Transportation quote and was 87 percent more than the lowest available quote. This
example is an indicator that the guaranteed service provided by DTCI can result in
substantial increases in costs.

The Navy analysis also showed higher air shipment costs using DTCI. The Navy
provided 15 other examples of higher DTCI costs related to shipments from four Navy
sites that also showed evidence of recurring cost issues related to expedited air shipments.

PMO officials confirmed they received numerous Navy cost complaints and told us GFM
rates were not applicable to DTCI5 because the lowest cost carrier in GFM may not be
available when needed. However, the large difference in costs between DTCI and GFM
should have led PMO officials to validate the accuracy of Menlo-reported savings.

Army Identified Higher Costs Under DTCI
An Army G-4 Logistics official indicated he received cost complaints from four
locations. He compared 38 DTCI shipments to GFM System rates and found mixed
results. On nine shipments, DTCI had the lowest rate available. For the remaining
29 shipments, the GFM System offered lower rates. In one example, GFM included
91 tender rates lower than the DTCI shipment (bill of lading number W68P4L0044098).
He stated that he stopped his review because a PMO official did not believe that
comparing DTCI costs to GFM System rates was a valid method for analyzing cost
reductions and increases. The PMO official should have reviewed the validity of Menlo­
reported savings.



5
  Per DoDI 4100.57, “Transportation and Traffic Management,” March 18, 2008, non-FAR procurement
instruments such as tenders of service and bills of lading will not compete with FAR procurements and
shall only be used in limited situations when FAR procurements cannot meet customer requirements.

                                                  11 

Management Services Costs Not Deducted
The USTRANSCOM Web site reported $167.4 million in cost reductions, but did not
deduct the $56.9 million in management service costs incurred by DTCI. The original
DTCI contract required the deduction of the cost of DTCI management services in the
cost reduction calculation. PMO personnel did not explain why they did not deduct
$56.9 million in management services before reporting the cost reductions on the Web
site. For this and any other contracts, USTRANSCOM needs to deduct management
service costs before reporting cost reductions.

Preparation of Performance Work Statements
PMO and USTRANSCOM contracting officials did not develop and include in the
contracts an effective methodology to establish baseline transportation costs and calculate
cost reductions from shipments. The inaccurate estimates of cost reductions could have
been avoided if the PMO and USTRANSCOM contracting officials prepared
performance work statements that required LMI and Menlo to comply with the DoD
standards and procedures on economic and cost analysis.

                                       DoDI 7041.3, “Economic Analysis for
    The LMI baseline was not           Decisionmaking,” November 7, 1995, provides
      adjusted for inflation.          procedures for conducting cost-effectiveness
                                       analysis in DoD. Economic analysis is a systematic
approach to the problem of choosing the best method of allocating scarce resources to
achieve a given objective. For each alternative, an economic analysis needs to identify
the pertinent costs and benefits, estimate the magnitude of those costs and benefits, and
estimate the timing of costs and benefits. DoDI 7041.3 requires results of economic
analyses, including all calculations and sources of data, to be documented down to the
most basic inputs to provide auditable and stand-alone documents. DoDI 7041.3 also
encourages the use of automated information tools and data sources to reduce paperwork
and provide the audit trail.

Some key provisions from DoDI 7041.3 were not performed by PMO personnel as part
of their oversight of the DTCI. For example, Enclosure 3 provides detailed procedures
on economic analysis and requires economic analyses to be adjusted for inflation.
However, the LMI baseline was not adjusted for inflation, even though economic
conditions changed significantly from 2008 through 2010.

Specifically, the Transportation Services Index, created by the U.S. Department of
Transportation, Bureau of Transportation Statistics, measures the movement of freight
and passengers. According to the Bureau of Transportation Statistics, the Transportation
Services Index acts as a measure of the economic activity added by the transportation
sector. The Transportation Services Index for freight fell about 4 percent from
March 2008 through September 2010. This indicates a decline in freight shipments, and
the baseline should have been adjusted. LMI’s lack of adjustments for economic changes
did not conform to adjustments made on the Tailored Transportation Contract.


                                            12 

As an illustration, in 2004, the Surface Deployment and Distribution Command used
Bureau of Labor Statistics data on transportation pricing to adjust for inflation on the
Tailored Transportation Contract. However, LMI did not adjust the baseline for the
change in the Transportation Services Index or for inflation because the performance
work statement did not require LMI to comply with DoDI 7041.3. As a result, the LMI
baseline was not adjusted for inflation.

PMO personnel and contracting officials did not include any DoD criteria in the
performance work statements for LMI and Menlo. The Commander, USTRANSCOM,
should develop an effective and accurate methodology to establish baseline costs used to
calculate cost reductions or another method to compare DTCI freight shipment prices
with DoD or market-based prices. The Commander should certify in writing that there
are cost reductions, using data prepared by DoD personnel and a process similar to
DoDI 7041.3.

Followup on Customer Complaints
PMO personnel did not effectively use the DTCI QASP and the “DTCI User’s Guide” in
monitoring the DTCI contractor’s performance. PMO personnel did not adequately
follow up on customer complaints about Menlo’s performance, including the lack of
verifiable cost reductions on customer shipments and untimely performance. They also
did not comply with QASP procedures that required PMO personnel to visit shipping and
receiving activities randomly to conduct real-time contractor performance measurements
and onsite quality assurance training.

The purpose of the DTCI QASP was to ensure that the Government was receiving the
services specified in the DTCI contract and that the services met performance standards.
PMO personnel and USTRANSCOM contracting officials should have fully
implemented quality assurance procedures as required in the QASP. This did not occur.

The QASP was intended to ensure that Menlo achieved required goals. DTCI QASP,
Section 2.5.1, “Surveillance Objective,” states that quality assurance personnel are to
evaluate contractor performance through submissions of performance evaluation reports,
using a Web-based tool (called Customer Feedback Tool) or through daily independent
monitoring, or both.

Additionally, the “DTCI User’s Guide” required CORs and users, such as transportation
officers and ordering officers, to report poor performance by the contractor. The “DTCI
User’s Guide” states “It is imperative that any experience of poor performance be
reported using the Customer Feedback Tool provided by the coordinator. Without input,
the PMO will not be able to gauge the state of performance on the program.”




                                           13 

  PMO instructed transportation         From March 2008 to October 2010, Menlo
       officers not to submit           recorded 7,039 complaints on about
    complaints on single events         700,000 shipments. Users mostly complained
   (late pickups and deliveries).       about late pickups (3,212) and late deliveries
                                        (1,156). However, the number of complaints was
understated due, in part, to instructions given to transportation officers by the PMO
officials. Specifically, on March 18, 2010, a PMO official issued a customer advisory
that instructed transportation officers not to submit complaints on single events (late
pickups and deliveries) and, instead, hold the individual complaints until they observed a
trend and then submit only a single complaint. This negated the usefulness of the
Customer Feedback Tool as a measure of performance since the events were not
identified separately. The Commander, USTRANSCOM, should direct the PMO
officials to withdraw this customer advisory.

We also followed up with CORs to determine whether the PMO personnel fully
considered the users’ complaints. The Army and Navy CORs provided us with
information indicating that its users were dissatisfied with Menlo’s performance.
Specifically, they provided survey results from 37 sites that showed about 54 percent of
the respondents did not consider the DTCI shipping process to be any better than the
process before DTCI. Army and Navy respondents also indicated that DTCI rates for
shipping freight appeared to be higher than concurrent tender rates in the GFM System.
PMO personnel should have followed up on customer complaints and fully analyzed the
information. USTRANSCOM told us that it had withheld over $115,290 in management
service fees because of poor performance.

Assessing Performance and Awarding Incentive Fees
Since the inception of the DTCI contract, the DTCI Award Fee Board provided portions
of the award fees to Menlo. The DTCI contract contained a requirement that twice a
year, the DTCI Award Fee Board assess the contractor’s performance. The assessment,
according to the contract, was to be used to rate the contractor’s performance in
accordance with evaluation criteria in the performance work statement.

We examined documents related to Award Fee Period No. 6, April 17, 2010, through
October 31, 2010. The documents showed Menlo did not meet its performance goal in
one area, on-time delivery, and it did not receive the related award fee. The documents
showed the Board recommended that $625,573 of the available $798,739 be awarded to
the contractor for its performance in other performance areas, including Information
Technology.

According to Award Fee Board documents dated December 2010, Menlo reported that it
met five of the six key performance indicators. Table 5 shows the performance
information, which the Board used to make its award in the Award Fee Period No. 6.




                                            14 

          Table 5. DTCI Key Performance Indicators for Rating Period No. 6 

                               April 17- October 31, 2010 

                                                Goal        Performance
                     Target                   (percent)       (percent)
       On-time Pickup                             97            98.9
       On-time Delivery                           97            95.6
       Information Technology                     99            99.6
       System Availability
       Loss/Damage-Free Shipments                 98            99.9
       Manage Claims in Timely Manner             99          100.0
       Small Business Participation               25            43.7*
     *Supplemental information provided by the Acquisition Director, USTRANSCOM.

We believe there were areas where performance may have been overstated or the award
fees were granted based on questionable contractor data and without fully considering
ordering officer evaluations, as described below.

Contractor Use of “Exceptions” Affected Reported
On-time Delivery Information
PMO personnel did not adequately determine whether the DTCI contractor was meeting
expected on-time delivery performance metrics, and might have overstated the
performance. Information showed on-time delivery performance results were distorted in
part because of the use of “exception” reporting.

On the basis of Menlo’s information, the PMO believed that Menlo’s performance was an
improvement over the pre-DTCI process. However, customers complained about Menlo
using exception reporting to mask poor performance.

According to the Defense Transportation Regulation, chapter 213, exception codes are to
be used for instances where the DTCI coordinator (Menlo) cannot perform because of
factors beyond its control. Valid exceptions include when weather conditions prohibit
delivery or when the installation is closed. Customers complained that Menlo
inappropriately used exceptions on late pickups and deliveries.

Although the customers claimed this distorted Menlo’s true on-time performance, PMO
personnel told us that DTCI performance was improving and better than the prior
Tailored Transportation Contracts. 6 We analyzed six months of exception data under the
Tailored Transportation Contract II and compared the exception data to results under
DTCI. Without the use of exceptions, DTCI delivery performance was nearly identical to


6
  The Tailored Transportation Contracts (I and II) were Federal Acquisition Regulation-based contracts for
freight transportation services and were performance based.

                                                    15 

the Tailored Transportation Contract II: 86.8 percent for DTCI compared to 86.7 percent
for Tailored Transportation Contract II. We did not test the exceptions for validity;
however, if all the exceptions were valid, delivery performance was slightly higher for
DTCI: 96.9 percent (October 2010) versus 95.5 percent (April 2008). 7

                                             PMO personnel also used a contractor
     UNISYS reported indications that        (UNISYS) to perform analyses of the key
      Menlo had changed delivery             performance indicators. We reviewed the
           performance data.                 process and concluded that UNISYS
identified problems to be considered by the PMO as it evaluated contractor performance.
For example, UNISYS reported on December 1, 2010, indications that Menlo had
changed delivery performance data and that the use of exceptions had “significantly
escalated.” Two months later, UNISYS reported that Menlo had changed delivery
performance data for 10 consecutive months (January 2010 through October 2010).
However, PMO personnel did not include these findings in the documents prepared for
the Award Fee Board. The Commander, USTRANSCOM, should review Menlo’s
potentially questionable use of exceptions and, based on the results of that review, take
appropriate action.

Ordering Officer Evaluations Showed Customers Were Only
Partially Satisfied With Contractor Performance
The PMO also requested quarterly evaluations from DoD transportation ordering officers.
The objective was to provide the PMO personnel with an independent evaluation of the
contractor’s performance during the rating period. The award fee process for the period
we examined (Period No. 6) included evaluations from 74 DoD transportation ordering
officers. Of the 74 evaluations, 27 showed customers were not satisfied with Menlo’s
performance.

The evaluations indicated problems with deliveries, exceptions, and cost savings. For
example, an Army transportation officer indicated the contractor did not abide by the
                                      DoD standard transit time guides and that the
     The evaluations indicated        contractor had not been truthful regarding the use of
      problems with deliveries,       exceptions. A Navy transportation officer indicated
    exceptions, and cost savings.     that he concluded the cost reductions could be
                                      inaccurate and potentially inflated. An Air Force
transportation officer submitted three examples where timeliness affected a Mission
Impaired Capability Awaiting Parts (a classification used when an aircraft is grounded)
scenario. Another Air Force transportation officer stated that the Customer Feedback
Tool was not user-friendly and that the contractor hastily closed items without adequately
resolving the issues.




7
 October 2010 was the last month of DTCI Period No. 6 and April 2008 was the last month of available
Tailored Transportation Contract II data.

                                                  16 

The comments did not support the Award Fee Board’s high ratings for the information
management metric, which included customer complaints and information technology
system availability. Customer evaluations indicated problems with the contractor’s
transportation management system and Customer Feedback Tool. For example, the
Customer Feedback Tool received an average rating of 3.57 (neutral, less than satisfied)
on a scale of 1 to 5 by the transportation officers. 8 However, the Award Fee Board
appeared to overlook these problems, overrelying on the contractor’s performance data
(see Table 5) and recommending a near-perfect rating (98.84 out of 100) for the
contractor’s information management metric. 9 The Board awarded Menlo $197,369 for
this metric. The results of the quarterly evaluations, however, suggest the award fee to
Menlo was not warranted.

The Commander, USTRANSCOM, should review the Menlo award fee process to
determine whether a portion of the award fees should be refunded in light of the
questionable performance achieved and the inaccurate cost reduction information
provided by Menlo.

Should the DTCI Contract Continue?
We concluded that the questionable cost reductions, distorted on-time delivery
information, and weak contract oversight cast doubt on the benefits of continuing the
DTCI contract. The cost benefits are questionable, and performance indicators for
on-time deliveries were overstated and did not show improvement over past practices.
Also, the PMO officials seemed ill-prepared to provide the amount of oversight required
to overcome the obstacles with the contract. Our analysis of the reported cost reductions
and program costs are demonstrated in Table 6.

                         Table 6. DTCI Cost Reductions and Offsets

                                March 2008-September 2010 

                                        (in millions)
                                   Category              Amount
                        Reported Cost Reduction                        $(167.4)
                        Outliers                                          84.8
                        No Large Shipments in History                     33.2
                        Program Management Costs                          56.9
                          Total Net Cost Increases                        $7.5
                       Note: Total does not sum because of rounding.

Instead of reducing costs in the 30-month period ending September 2010, it is possible
that the net program costs were $7.5 million, or $174.9 million more than reported. The


8
  The evaluations were scored as follows: 1 = Extremely Unsatisfied, 2 = Unsatisfied, 3 = Neutral,

4 = Satisfied, and 5 = Outstanding

9
  This metric included system availability and customer complaints.


                                                     17 

cost reductions could not be verified because of inaccurate, unmatchable, and incomplete
contractor information, and program costs were not deducted from the reported cost
reductions.

The option to extend the contract 1 year was exercised in October 2010 and again in
October 2011. Decisions on continuing the contract must be made in October 2012 and
October 2013. The contract methodology is flawed because it allows the contractors to
determine the cost reductions and get rewarded based on reported cost reductions.
USTRANSCOM must establish baseline costs and a process to calculate cost reductions
using a methodology that meets statistical and cost analysis standards. Once developed,
the Commander, USTRANSCOM, should certify that the process is valid for the
contract. Then the Commander, USTRANSCOM, needs to establish procedures that
require a senior DoD employee certify quarterly that reported cost reductions actually
occurred.

The Commander, USTRANSCOM, must make future decisions on continuing the
contract based upon a certified process for calculating cost reductions and certified cost
reduction data and achievement of key performance indicators. The majority of the funds
used on the DTCI contract come from the Military Services and DLA. Thus, any
decisions on continuing the contract should be based on cost efficiencies that benefit the
Military Services and DLA.

On June 11, 2011, the USTRANSCOM contracting officer modified the DTCI contract to
make improvements to the way Menlo estimates cost reductions and cost increases on the
DTCI contract in the future. The contract modification required Menlo to improve
performance based on actual DTCI data instead of the historical baseline. As a result, the
contract modification will not correct the questionable information from the baseline used
to justify continuing the contract.

Effect of Not Exercising the Contract Options
On August 16, 2010, the Secretary of Defense issued a series of initiatives, including
reducing funding for service support contractors by 10 percent per year for FY 2011
through FY 2013. USTRANSCOM budget documents for FY 2013 through FY 2014
indicate annual DTCI contract costs would be about $24.8 million and $24.3 million,
respectively. 10 If the DTCI contract were discontinued, this would contribute
$49.1 million toward the Secretary’s goal.

The Military Services and DLA currently use their respective shipping systems to
coordinate DTCI freight. Freight consolidation is another area that ending the contract
would not significantly affect, as consolidation savings were an unrealized goal of the
DTCI program, according to DLA officials. They indicated that DTCI did not achieve
cost reductions for freight consolidation because DLA had an effective system already in


10
     Contract costs include management services and award fees but exclude transportation costs.

                                                      18 

place to consolidate freight shipments before implementation of the DTCI program. We
observed the consolidation process at DLA’s largest depot, Distribution Depot
Susquehanna, Pennsylvania (see Figure 2).

                        Figure 2. Freight Consolidation Process
                     Distribution Depot Susquehanna, Pennsylvania




        Pallets of consolidated freight prepared for shipment on a roller-bed truck. As part of
        an automated process, DLA’s Distribution Standard System routinely prioritizes, sorts,
        and routes the freight for consolidation.

DLA personnel stated that moving away from DTCI would not adversely affect the
process of using dedicated shipments. DLA personnel told us that DLA coordinates with
its customers to identify shipping lanes requiring dedicated trucks and that Menlo was not
a part of the selection process. Menlo verified that it did not control the use of dedicated
trucks.

Although efficiencies were a goal of the DTCI program, savings related to personnel
reductions were not an objective of DTCI. Ordering officers at three locations indicated
that DTCI had actually increased their workload.




                                                  19 

Conclusion
PMO personnel could not show that the DTCI program achieved the DTCI goal of
reducing costs on DTCI freight shipments. In addition, the DTCI Award Fee Board paid
portions of $2.8 million in award fees to Menlo based on inaccurate performance
information. Questionable cost reduction data and program costs exceed any reported
cost reductions from the DTCI contract. Contract oversight and accountability for DoD
resources needed improvement. Further, customer complaints from the Military Services
about the contract performance and additional costs were not addressed. The
questionable benefits and performance problems with the contract make exercising the
FY 2013 option problematic. Future decisions on the contract should be based on a
certified process for determining that program benefits occur and offset the contract
costs.

Management Comments on the Finding and
Our Response
USTRANSCOM Comments
The Commander, USTRANSCOM, provided comments on the internal control weakness.
He indicated that USTRANSCOM modified the DTCI contract in June 2011 to adjust the
methodology used to determine cost avoidances. He stated that the new method
improves cost avoidance calculations and was reviewed and approved by the Military
Services and DLA.

Our Response
The Commander’s comments were responsive. We did not audit the cost avoidances
reported after the modification of the contract in June 2011.




                                         20 

Recommendations, Management Comments, and
Our Response
Deleted and Renumbered Recommendations
As a result of management comments, we deleted draft Recommendation 1.c. Draft
Recommendations 1.d through 1.l have been renumbered as Recommendations 1.c
through 1.k.

1. We recommend that the Commander, United States Transportation Command:

        a. Perform a review of the lack of compliance with the Quality Assurance
Surveillance Plan by the Program Management Office personnel and contracting
officials and based on that review, consider any administrative actions, as
appropriate.

USTRANSCOM Comments
The Commander agreed with the recommendation. He stated that PMO and contracting
personnel were in compliance with the QASP and that Government files documented
adherence to the QASP.

Our Response
The Commander’s comments were not responsive. Based on work we performed, there
was no evidence of compliance with the QASP and the Commander did not indicate
whether he performed the review, and if so, what the conclusions were. We request that
he provide the Government files that show compliance.

       b. Establish a plan to identify and track all Military Service and Defense
Logistics Agency budget and reprogramming actions that occur as a result of
Defense Transportation Coordination Initiative contract cost reductions.

USTRANSCOM Comments
The Commander disagreed with the recommendation and stated that budget or
reprogramming actions by the Services and DLA were not within the scope of
USTRANSCOM authority.

Our Response
The Commander’s comments were not responsive. We did not request that
USTRANSCOM perform any budgeting or reprogramming actions in the Military
Services and DLA. We recommended that USTRANSCOM establish a plan to identify
what benefits the Military Services and DLA achieved through DTCI.

We believe this is a program management function and is a necessary part of
management of the program. It is the responsibility of USTRANSCOM to demonstrate

                                          21 

the results of the DTCI program, and USTRANSCOM could request the information
from the Military Services and DLA.

To justify continuance of the contract, we continue to believe that USTRANSCOM needs
a plan to track the fiscal effect of DTCI on the Services and DLA budgets. We request
that the Commander provide further comments.

       c. Provide the Military Services and Defense Logistics Agency with
information on the additional costs and the option of canceling or reducing
participation in the Defense Transportation Coordination Initiative.

USTRANSCOM Comments
The Commander agreed that a full review of the baseline was warranted. He stated that
USTRANSCOM was in the process of conducting a DTCI enterprise-wide review and
would coordinate with the Services and DLA to address areas needing improvement. He
stated that it was premature to discuss canceling or reducing the scope the DTCI
program.

       d. Deduct program management services from reported cost reductions.

USTRANSCOM Comments
The Commander agreed with the recommendation and stated that USTRANSCOM would
ensure the consistent reporting of all future cost reductions.

       e. Develop an effective and accurate methodology to establish baseline costs
used to calculate cost reductions or another method to compare Defense
Transportation Coordination Initiative freight shipment prices with DoD or
market-based prices and certify in writing that there are cost reductions, using data
prepared by DoD personnel using a process similar to DoD Instruction 7041.3,
“Economic Analysis for Decisionmaking,” November 7, 1995.

USTRANSCOM Comments
The Commander agreed and stated that although DoDI 7041.3 did not apply to service

contracts, USTRANSCOM had considered it and complied with Enclosure 3, 

paragraph 4.2.2 by using cost-estimating techniques reasonably based on the amount and 

quality of available data.


Our Response
The Commander’s comments on Recommendations 1.c through 1.e were responsive and
no further comments were required.

      f. Verify that a complete Quality Assurance Surveillance Plan is
implemented.



                                          22 

USTRANSCOM Comments
The Commander agreed and stated that USTRANSCOM had a fully implemented
Quality Assurance Surveillance Plan.

Our Response
The Commander’s comments were not responsive. While he agreed he fully
implemented a QASP, there was no evidence of it. We request the Commander provide
the information demonstrating he fully implemented the QASP.

      g. Rescind the March 18, 2010, customer advisory on submission of customer
complaints.

USTRANSCOM Comments
The Commander agreed to issue a new customer advisory by the end of April 2012. We
confirmed that the advisory was issued on June 29, 2012.

      h. Follow up on customer complaints and UNISYS findings related to
Menlo’s increased use of exceptions.

USTRANSCOM Comments
The Commander agreed with the recommendation and stated that the PMO would ensure
all customer complaints are addressed. The Commander also stated that the UNISYS
findings were inaccurate and that the PMO and Menlo had adjudicated the issue.

       i. Review the award fee process for Menlo to determine whether it should
return a portion of the award fees because of the questionable cost reduction and
on-time delivery information it provided.

USTRANSCOM Comments
The Commander agreed with the recommendation and stated that PMO personnel
validated on-time delivery information and that the award fees earned and paid to Menlo
were valid.

       j. Establish procedures that require a senior DoD employee certify quarterly
the reported cost reductions or cost increases accrued.

USTRANSCOM Comments
The Commander agreed to establish procedures and certify the costs. He stated that the
first certification would occur by the end of June 2012. The certification was rescheduled
for October 2012.

       k. Decide whether to continue the contract in FY 2013 based on certified data
that show the Defense Transportation Coordination Initiative achieves cost savings
goals and other key performance indicators.

                                           23 

USTRANSCOM Comments
The Commander agreed to review Menlo’s performance before exercising the next
option. He stated that the Award Term Option Determining Official would review
Menlo’s performance against the criteria set forth in the Award Term Option Plan.

Our Response
The Commander’s comments on Recommendations 1.g through 1.k were responsive, and
no further comments were required.




                                          24 

Appendix A. Scope and Methodology
We conducted this performance audit from August 2010 through December 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

We obtained information on the effectiveness of the DTCI during site visits to the
Distribution Depot Susquehanna, Pennsylvania; USTRANSCOM; and Menlo Worldwide
Government Services, Aurora, Illinois. We interviewed CORs, ordering officers,
transportation officers, information technology personnel, financial personnel,
USTRANSCOM PMO personnel, and Menlo staff. We also obtained information on
DTCI from official Government and contractor Web sites.

We analyzed more than 473,000 historical cost records used to develop the DTCI
baseline. Specifically, we used analytical review procedures to identify anomalies and
items typically ineligible for shipment under the DTCI program (such as items weighing
less than 150 pounds and excluded items).

We analyzed more than 698,000 DTCI shipping records, from March 2008 through
September 2010, with an extended cost of about $384.5 million and a reported cost
reduction of $167.4 million. Using analytical review procedures, we identified
$85.8 million in anomalies. We assessed DoD’s oversight of the system and records, but
we did not verify the underlying data to DoD shipping and payment systems.

We reviewed the DTCI contract with Menlo and support services contracts with LMI and
UNISYS to identify performance measures and work requirements. We examined
official contract files and identified quality assurance documentation, including required
checklists.

We reviewed $2.8 million in award fees provided to Menlo since the contract began in
FY 2008. We examined in detail the supporting records for Award Fee Period No. 6
(April 2010 through October 2010). The examination included 75 customer evaluations
submitted to the PMO during the award fee process for Period No. 6.

We examined 7,039 customer complaints filed in the Customer Feedback Tool (from
FY 2008 through FY 2010) and identified areas with widespread problems, such as late
pickups and deliveries.

We reviewed the results of Navy analyses of 435 DTCI shipments (from April 2010
through May 2011) that compared DTCI costs to GFM System tender rates. We also
reviewed the results of an Army analysis of 38 DTCI shipments that occurred in calendar
years 2009 and 2010. We did not verify the supporting information on the Navy and

                                            25 

Army comparisons. The Army and Navy used the analyses to question the validity of
Menlo-reported cost savings when the Army and Navy believed DTCI costs were high. 11

We summarized USTRANSCOM DTCI budget documents for FY 2011 through
FY 2014 that projected DTCI program costs of $73.8 million.

Use of Computer-Processed Data
We used computer-processed data to perform this audit and tested it for reliability.
Specifically, we obtained a universe of DTCI shipment data from the DTCI contractor’s
information system, Menlo’s One Network Enterprise Transportation Management
System. We obtained data for the period March 2008 through December 2010; however,
we limited our scope to coincide with the end of the fiscal year (September 2010).
During our analysis of the shipment data, we determined that cost reduction estimates
computed by the system were unreliable. Specifically, we identified 4,715 shipment
records that were statistical outliers and had produced unreliable cost reductions totaling
$84.8 million. We also identified unreasonably low and high cost per hundredweight,
shipments with either zero cost or zero weight, and shipments with invalid states and zip
codes. We found that the costs on dedicated shipments in Menlo’s system were
unreliable and did not match the costs identified in the Syncada payment system.

We obtained four versions of historical shipment data compiled by LMI that we tested for
reliability. We determined that the LMI data were inaccurate, incomplete, and
unmatchable. For example, we identified shipments that were ineligible for the DTCI
program that LMI should have excluded from the database (items such as arms,
ammunition, explosives, and small items). We also found that the LMI data did not
always include information on large shipments that weighed more than 20,000 pounds
and that the data had not been adjusted for inflation.

Use of Technical Assistance
Personnel from the Quantitative Methods Division assisted us in evaluating DTCI
shipment data provided by Menlo. See Appendix B for details on our statistical analysis.

Prior Coverage on DTCI
During the last 5 years, the Government Accountability Office (GAO) and the Defense
Contract Audit Agency (DCAA) have issued five reports and one GAO decision
discussing the DTCI. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. DCAA reports are restricted.




11
  Per DoDI 4500.57, “Transportation and Traffic Management,” March 18, 2008, non-FAR procurement
instruments such as tenders of service and bills of lading will not compete with FAR procurements and
shall only be used in limited situations when FAR procurements cannot meet customer requirements.

                                                  26 

GAO
GAO Report No.11-569, “Defense Logistics: DoD Needs to Take Additional Actions to
Address Challenges in Supply Chain Management,” July 28, 2011

GAO Report No. GAO-07-675R, “Defense Transportation: DoD Has Taken Actions to
Incorporate Lessons Learned in Transforming Its Freight Distribution System,”
May 8, 2007

GAO Protest Decision B-298651, “2B Brokers et al.,” November 27, 2006

DCAA
Defense Contract Audit Agency Report No. 4411-2009P17900002, “Report on Audit of
Recorded Direct Freight Transportation Costs Under Task Order 0001,” June 24, 2010

Defense Contract Audit Agency Report No. 4411-2009P27000006, “Report on Audit of
Parts of a Proposal for Defense Coordination Transportation Initiative Phase IV,”
October 13, 2009

Defense Contract Audit Agency Report No. 06211-2009C21000007, “Report on Audit
of Subcontract Proposal to Menlo Worldwide Government Services (MWGS),”
September 11, 2009




                                        27 

Appendix B. Statistical Analysis
We performed a statistical analysis on DTCI shipment data from March 2008 through
December 2010 that the contractor provided in an Access database. The database
included 774,830 records and 14 data fields. Our statistical analysis began with the
698,276 shipments made from March 2008 through September 2010, as they
corresponded with the time period of the cost reduction amounts reported by
USTRANSCOM. We reduced our analysis to include 698,265 shipments, as 11 records
were incomplete and missing key data elements.

We used an Access expression to filter all shipments that were outside the March 2008­
September 2010 time period. We used the basic “Count” function to determine the total
number of shipments (698,265) and “Sum” function to total the amounts in the “Savings”
field ($166.5 million). We used the “PivotChart” function to determine the mean
($238.48) and standard deviation ($2,663.43) of the cost reduction.

We added or subtracted the standard deviation to and from the mean to determine the
range of the first standard deviation from the mean. To determine the range of the second
and third standard deviation, we added or subtracted the standard deviation to and from
the first and second standard deviation. We considered all shipments outside the range of
three standard deviations from the mean to be outliers. Table B-1 shows the low and
high range for each of the three standard deviations and outliers.

        Table B-1. Standard Deviation Ranges for the DTCI Shipment Data

                          March 2008-September 2010 

                                Low Range            High Range
              1st Std Dev     $(2,424.95)             $2,901.91
              2nd Std Dev      (5,088.38)              5,565.34
              3rd Std Dev      (7,751.81)              8,228.77
              Outliers       < (7,751.81)            > 8,228.77
              Note: Std Dev – standard deviation

We determined that 4,715 shipments with an absolute value of $86.8 million (net
$84.8 million) were outliers. Using Access, we separated the information by shipments
that had a positive and negative value. Therefore, the count is based on shipments with a
cost reduction within the standard deviation range and separated by values above
(positive) and below (negative) zero. For example, of the 4,715 outliers, 4,640 had a
positive value and 75 had a negative value. As displayed in Table B-2, of the
4,715 outliers, there were $85.8 million in cost reductions and $1.0 million in cost
increases.




                                                   28 

                             Table B-2. Analytical Review of DTCI Cost Reductions

                                         March 2008-September 2010 

                                                 ($ in millions)
                                           No. of Shipments                     Cost Reported
           Category                     Cost              Cost                              Cost        Cost
                                      Reduction         Increase          Total          Reduction    Increase    Total
Within 1st Std Dev                      253,594           417,516         671,110          ($101.2)       $83.6    $17.7
1st Std Dev – 2nd Std Dev                  14,048             4,458        18,506            (55.7)       14.0       41.7
2nd Std Dev – 3rd Std Dev                      3,612            322          3,934           (24.3)         1.9      22.4
Outliers                                       4,640             75          4,715           (85.8)         1.0      84.8
 Total                                    275,894         422,371         698,265          ($267.0)     $100.5    $166.5
           Std Dev – standard deviation

           As shown in Table B-2, we calculated that $86.8 million (absolute value) in reported cost
           reductions were outliers, beyond three standard deviations, that required further
           investigation because they reflected unusual and extreme cost reductions. Table B-3
           shows the 10 most extreme outliers in the 4,640 that fell outside three standard
           deviations.

                               Table B-3. Top 10 Extreme Cost Reduction Outliers

                                          March 2008-September 2010 

                                           State                             Cost
     Shipment Number                  From               To            Line Haul*          Baseline      Reported
                                                                                                         Reduction
   S421945446                             FL             AL               $3,500           $536,765       $533,265
   HEAGAG00168651                         GA             CA                 3,306           455,253        451,947
   HEAGAG00194968                         GA             CA                 2,350           373,515        371,165
   S473686445                             UT             IN                 3,524           304,604        301,080
   HWBCYC00075613                         CA             FL                 4,670           290,547        285,877
   S507690212                             FL             GA                   600           281,590        280,990
   S507689740                             FL             GA                   600           281,590        280,990
   LJMLD362006                            CA             FL                 4,585           282,221        277,636
   S438394489                             KY             KS                   862           268,950        268,088
   S446478560                          WA                IL               $2,787           $252,446       $249,659
           *Cost of the shipment, but does not include accessorials or fuel surcharges




                                                               29 

We determined that the outliers accounted for 0.68 percent of the total DTCI shipments
between March 2008 and September 2010 and, as shown in Table B-4, accounted for
more than 50 percent of the reported cost reductions.

                Table B-4. Standard Deviations of DTCI Shipments

                  With Corresponding Cost Reduction Percentage

                                        Shipments      Cost Reduction
                                         (percent)        (percent)
          Within 1st Std Dev               96.11            10.60
          1st Std Dev – 2nd Std Dev                     2.65                25.02
          2nd Std Dev – 3rd Std Dev                     0.56                13.43
          Outliers                                      0.68                50.94
           Total                                    100.00                100.00
         Note: Std Dev - standard deviation, and totals may not sum because of rounding.




                                                 30 

Appendix C. Extreme Outliers
The outliers listed here had extreme baseline costs ranging from $63 to $2,586 (per
hundredweight) that distorted the calculated cost reductions. The baseline rates for the
outliers exceeded those in the General Services Administration (GSA) Baseline Rate
Publication No. 1000-D. Specifically, GSA publications for the transportation of freight
by civilian agencies indicated that baseline rates range from $5.24 to $59.14 depending
on the transported distance (Cost per hundredweight rates for less than truckload
shipments per the GSA publication, current as of August 17, 2011).

1. Shipment No. S421945446. Menlo’s records indicated that this shipment went from
Florida to Alabama at a cost of $3,500 and weighed 107,840 pounds. This was a cost of
$3.24 per hundredweight. Menlo calculated a cost reduction of $533,265 on this
shipment. This outlier occurred because LMI used only one historical shipment to
calculate the baseline. Also, the historical shipment had a description of firearms or
parts, which are excluded from the DTCI program. The historical shipment cost
$4.97 per pound, and LMI used it to calculate a baseline cost per hundredweight of
$497.74.

2. Shipment No. HEAGAG00168651. Menlo’s records indicated this shipment went
from Georgia to California at a cost of $3,306 and weighed 17,600 pounds. This was a
cost of $18.78 per hundredweight. Menlo calculated a cost reduction of $451,947. This
outlier occurred because LMI used only one historical shipment that weighed less than
150 pounds. LMI used the cost of $25.86 per pound to calculate a baseline cost per
hundredweight of $2,586.67.

3. Shipment No. HEAGAG00194968. Menlo’s records indicated this shipment went
from Georgia to California at a cost of $2,350 and weighed 14,440 pounds. This was a
cost of $16.27 per hundredweight. Menlo calculated a cost reduction of $371,165. The
cost reduction on this shipment used the same baseline cost per hundredweight of
$2,586.67 as shipment 2.

4. Shipment No. S473686445. Menlo’s records indicated this shipment went from Utah
to Indiana at a cost of $3,524 and weighed 36,630 pounds. This was a cost of $9.62 per
hundredweight. Menlo calculated a cost reduction of $301,080. This outlier occurred
because LMI used only one historical shipment to calculate the baseline, and it was a
shipment of guns, machine, or parts for small arms, which are excluded from the DTCI
program. LMI used the cost of $8.31 per pound to calculate a baseline cost per
hundredweight of $831.57.

5. Shipment No. HWBCYC00075613. Menlo’s records indicated this shipment went
from California to Florida at a cost of $4,670 and weighed 36,800 pounds. This was a
cost of $12.69 per hundredweight. Menlo calculated a cost reduction of $285,877. LMI
used nine historical shipments to calculate the baseline. This outlier occurred because the
historical data included two shipments of parts for fire arms and guns and shipments with

                                            31 

weights under 150 pounds, which are excluded from the DTCI program. LMI used the
average cost of $7.89 per pound and calculated a baseline cost per hundredweight of
$789.53.

6. Shipment No. S507690212. Menlo’s records indicated this shipment went from
Florida to Georgia at a cost of $600 and weighed 25,980 pounds. This was a cost of
$2.31 per hundredweight. Menlo calculated a cost reduction of $280,990. This outlier
occurred because LMI used only two historical shipments to calculate the baseline and
the historical data included shipments with weights under 150 pounds. LMI used the
average cost of $10.83 per pound to calculate a baseline cost per hundredweight of
$1,083.87.

7. Shipment No. S507689740. Menlo’s records indicated this shipment went from
Florida to Georgia at a cost of $600 and weighed 25,980 pounds. This was a cost of
$2.31 per hundredweight. Menlo calculated a cost reduction of $280,990. This outlier
used the same baseline cost per hundredweight of $1,083.87 as shipment 6.

8. Shipment No. LJMLD362006. Menlo’s records indicated this shipment went from
California to Florida at a cost of $4,585 and weighed 24,500 pounds. This was a cost of
$18.71 per hundredweight. Menlo calculated a cost reduction of $277,636. This outlier
occurred because LMI used only one historical shipment to calculate the baseline. The
historical shipment had a description of guns, machine, or parts for use of small arms,
which are excluded from the DTCI program. LMI used the cost of $11.51 per pound to
calculate a baseline cost per hundredweight of $1,151.92.

9. Shipment No. S438394489. Menlo’s records indicated this shipment went from
Kentucky to Kansas at a cost of $862 and weighed 34,400 pounds. This was a cost of
$2.51 per hundredweight. Menlo calculated a cost reduction of $268,088. This outlier
occurred because LMI used only one historical shipment to calculate the baseline cost of
$7.81 per pound and a baseline cost per hundredweight of $781.83.

10. Shipment No. S446478560. Menlo’s records indicated this shipment went from
Washington to Illinois at a cost of $2,787 and weighed 400,000 pounds. This was a cost
of $0.70 per hundredweight. Menlo calculated a cost reduction of $249,659. LMI used
only two historical shipments to calculate the baseline cost of $0.63 per pound and a
baseline cost per hundredweight of $63.11. This outlier occurred because LMI relied on
only two shipments to formulate the baseline and because Menlo reported an erroneous
shipment weight. The Army COR provided information that the correct weight should
have been 40,000 pounds, with a cost per hundredweight of $6.97. The incorrect weight
overstated the cost reduction by $227,196.




                                           32 

United States Transportation Command Comments





                  Click to add JPEG file




                                 33
                           Final Report 

                            Reference





Click to add JPEG file
                         Deleted




                         Renumbered as
                         Recommendation
                         1.c.




                         Renumbered as
                         Recommendation
                         1.d.




               34
                           Final Report 

                            Reference





                         Renumbered as
                         Recommendation
                         1.e.




                         Renumbered as
                         Recommendation
                         1.f.
Click to add JPEG file

                         Renumbered as
                         Recommendation
                         1.g.


                         Renumbered as
                         Recommendation
                         1.h.



                         Renumbered as
                         Recommendation
                         1.i.




               35
                           Final Report 

                            Reference





                         Renumbered as
                         Recommendation
                         1.j.



                         Renumbered as
                         Recommendation
                         1.k.




Click to add JPEG file




               36
